                                                   National Railroad Passenger Corporation
                                                   Office of Inspector General
                                                   10 G Street, N.E., 3W-300
                                                   Washington, D.C. 20002




            AMTRAK EMPLOYEE ABUSES VEHICLE PRIVILEGES AND
                        TIME AND ATTENDANCE
                                     APRIL 25, 2013
                                  CASE # DC-12-0376

Our investigation disclosed that an employee who worked in a prominent leadership
position of significant trust was found to have abused his Amtrak vehicle privileges and
engaged in substantial time and attendance abuse. We determined that this employee
regularly worked as a high school football coach and trainer during claimed paid hours.
Our investigation found that the employee left work early on many days to attend football
practice or games while he was supposed to be on duty at Amtrak. He also often used an
Amtrak vehicle to drive to his coaching activities, for which he received other
compensation. The employee was often unavailable to his Amtrak subordinates, who
attempted to contact him for operational direction. He voluntarily resigned when
confronted with the results of our investigation.
